U.S. Department of Agriculture

                              Office of Inspector General
                                          Midwest Region




                Audit Report

          Office of Homeland Security
               Allocation and Use
          of Homeland Security Funds




                                 Report No. 50601-0007-Ch
                                             MARCH 2004
                               UNITED STATES DEPARTMENT OF AGRICULTURE
                                                  OFFICE OF INSPECTOR GENERAL

                                                         Washington D.C. 20250




DATE:                March 31, 2004

REPLY TO
ATTN OF:             50601-0007-Ch

SUBJECT:             Allocation and Use of Homeland Security Funds

TO:                  Jeremy Stump
                     Acting Director
                     Office of Homeland Security

                     John Surina
                     Deputy Assistant Secretary for Administration

                     Stephen B. Dewhurst
                     Director
                     Office of Budget & Program Analysis


We evaluated the propriety and timeliness of the U.S. Department of Agriculture’s use of supplemental
appropriation funds allocated by Congress for Homeland Security purposes and released to the
Department at the time of this audit.1 This review examined the use to which the Department put about
$302 million of those funds.2 We reviewed agency budget reports to ensure that Homeland Security
funds were being obligated and expended properly, and we reviewed agency monthly status reports to
ensure that the funds were used for their intended purposes. We determined that the Department’s
allocation and use of the supplemental Homeland Security funds, within those areas we tested, met the
legislative intent of using the funds to upgrade Homeland Security and other activities in response to
terrorist attacks.

The status reports used to track Homeland Security accomplishments, however, did not always reflect
the agencies’ actual progress in completing the funded projects. Estimated completion dates
sometimes remained unchanged several months after they became outdated. Some dates shown as
“actual completion” dates were the dates that contracts were signed or security assessments were
performed, rather then the dates when the security measures were completed. As a result,
Departmental officials had a less accurate picture of the various agencies’ progress in completing
Homeland Security measures than they could have had. Also, the weaknesses we noted in the reporting
process (see Finding No. 1) may result in unforeseen or unreported delays for projects or agencies not
included in our sample.


1
  Public Laws 107-117 appropriated $328 million while Public Law 107-206 appropriated $226.5 million for a total of $554.5 million.
2
  Of the $554.5 million, $201.5 has been designated for emergency use only and $51 million is being reviewed separately under Audit No. 50099-17-KC,
leaving $302 million as the subject of this audit.
Jeremy Stump, et al.                                                                                       3

We also found that one agency, Animal and Plant Health Inspection Service (APHIS), reported
disbursements of Homeland Security funds as obligations on the monthly status reports. This
inaccuracy understated the reported obligations by $26 million as of May 2003, at which time the
agency corrected the reporting errors, following discussions with OIG. Prior to this change, officials
with neither APHIS nor the Office of Budget and Program Analysis (OBPA) had known that the
agency had over-obligated about $1.1 million in two of the spending categories specified by the
Department.

Overall, our discussions with agency officials and review of work plans indicated that except for long-
term projects and certain training projects, the security upgrades would be in place by December 2003.
The Homeland Security projects we reviewed supported this timeline and also confirmed that long-
term expenditures were based on reasonable plans for implementation.

On February 25, 2004, we met with representatives of your respective staffs. Subsequent to the
meeting, we provided you with a draft report to provide your written comments. These comments
acknowledged that some confusion existed in agencies’ compliance with the reporting process, and the
issues have been addressed and resolved. We accept the response as sufficient to reach management
decision on the recommendations and no further action is necessary. We have incorporated the written
comments into the appropriate sections of this report, and have attached the written comments as
Exhibit B.

BACKGROUND

In 2002, Congress appropriated $328 million to the U.S. Department of Agriculture (USDA) under Public
Law 107-117 for security upgrades and other activities to anticipate and prevent terrorist attacks (hereafter
referred to as Homeland Security purposes). Public Law 107-206, also passed in 2002, gave another
supplemental appropriation to USDA of which $226.5 million was designated for Homeland Security
purposes. By the time of our audit, however, only $25 million of this second appropriation had been
released to the Agricultural Research Service (ARS) for a total of $353 million ($328 million plus
$25 million). The Office of the Secretary required that each recipient agency provide a spending plan
outlining its need for Homeland Security Funds. The plans were reviewed by OBPA and the
Department’s Homeland Security Council, and were approved by the Office of the Secretary. These
reviews were used by the Office of the Secretary to determine how each agency should spend the
appropriations by outlining approved spending categories.

In May 2002, OBPA instructed each agency to report both its monthly and cumulative obligations by
the 10th of every month. The agencies were also required to use specific and measurable language to
describe the progress of approved projects, or milestones. These status reports allowed Departmental
and agency managers to review program accomplishments, make decisions and identify major or
unanticipated spending needs.

OBJECTIVES

Our objectives were to determine (1) whether Homeland Security funds were used for their intended
purpose and (2) whether the monthly status reports accurately reported the status of funds and the
progress of security upgrades at select agencies.
Jeremy Stump, et al.                                                                                  4



SCOPE AND METHODOLOGY

We reviewed Homeland Security allocations at three agencies—APHIS, ARS, and Food Safety and
Inspection Service (FSIS)—and at the Office of the Secretary. As of May 31, 2003, these four entities
received $353 million in supplemental Homeland Security funding from the Defense Appropriations
Act (Public Law 107-117) and the Supplemental Appropriations Act for Further Recovery From and
Response to Terrorist Acts on the United States (Public Law 107-206). We judgmentally sampled
allocations from $301,370,878 of these funds. (The remaining balance of the funds, $51,629,122 was
approved for cooperative agreements with States and universities for Homeland Security purposes.3)
We reviewed allocations totaling $216,788,390 of the $301,370,878. As of May 31, 2003,
$86,424,469 of the $216,788,390 had been obligated. We examined supporting documentation for
$54,547,503 of the $86,424,469. Specifically excluded from the scope of our audit were: (1) non-
Homeland Security funds that were made available to the Department under both appropriations Acts;
and (2) Homeland Security funds under Public Law 107-206 which have not been made available to
the Department.

The period covered by the review included fiscal years 2002 and 2003. We conducted the review at
the agencies’ Headquarters offices and at sites in Beltsville, Maryland (APHIS National Plant and
Germ Plasm Quarantine Center), Gulfport, Mississippi (National Monitoring and Residue Analysis
Laboratory), and New Orleans, Louisiana (ARS’ Southern Regional Research Center.) At these sites,
we verified the purchase and installation of security upgrades. We reviewed agency workplans and
agency status reports on the progress of Homeland Security activities and obligation of Homeland
Security funds, and we reviewed Departmental records, such as Advice of Allotment, Apportionment
and Reapportionment Schedules, Agency Allocation Proposals, Monthly Status Reports, Purchase
Orders, and Interdepartmental Agreements. In addition, we interviewed officials of both OBPA and
Departmental Administration, and obtained documentation as needed from these officials. We
performed this review in accordance with generally accepted Government Auditing Standards.

AUDIT RESULTS

FINDING NO. 1 - STATUS REPORTS DID NOT ALWAYS REFLECT AGENCIES’
PROGRESS ON FUNDED HOMELAND SECURITY PROJECTS

The agencies reviewed did not always provide complete or accurate information in their monthly status
reports to OBPA. Milestones used to track the completion status of funded projects were not always
clear and, in many cases, estimated project completion dates remained unchanged several months after
they had become outdated. Target dates reported to OBPA did not always reflect the agencies’ actual
progress in completing funded Homeland Security projects. Agencies’ lack of effective controls over
reporting procedures, in part, caused these problems. In addition, neither OBPA nor Departmental
Administration effectively reviewed the agencies’ reports. As a result, Departmental officials were not
always fully informed of the agencies’ progress in completing critical and time-sensitive Homeland
Security measures.



3
    The funds for cooperative agreements are being reviewed separately under Audit No. 50099-17-KC.
Jeremy Stump, et al.                                                                                                                                  5

The guidance issued to all USDA agencies by the Department on May 9, 2002, required each recipient
agency to provide a monthly status report on its project milestones by the 10th of each month. These
guidelines required that the milestones used to track the agencies’ progress in implementing security
measures be specific, measurable descriptions of the agencies’ progress. For each project the status
reports showed the allocation, total funds obligated, estimated completion dates, the project completion
date, and a section for comments on the status of the project.

Our review of the selected agencies’ controls over this process showed that the controls were not
sufficient to ensure that the status reports clearly and accurately reflected the agencies’ month-to-
month progress in completing the funded Homeland Security projects. We found that agencies had not
established review procedures to verify the monthly status reports, or to ensure that the information
they contained was consistent with internal documentation, such as financial records and work plans.

We obtained the monthly status reports prepared by the three agencies that received specific
appropriations from Congress (FSIS, APHIS, and ARS) for the period of March through May 2003. In
addition, we selected a sample of 5 other agencies out of the 134 that received their Homeland Security
funds out of the appropriation given to the Office of the Secretary and administered by Departmental
Administration: Rural Development, the Farm Service Agency, the Forest Service, the Natural
Resources Conservation Service, and the Office of the Chief Information Officer. The status reports
for these five agencies were prepared by Departmental Administration, based on information provided
by the agencies on a monthly basis. We also reviewed four projects that were administered directly by
Departmental Administration. We reviewed each of the agencies’ status reports to determine whether
reported milestones for completing funded Homeland Security projects were sufficiently clear and up-
to-date.

For 31 projects at APHIS, ARS, FSIS, and Departmental Administration (representing $217 million
out of the $302 million), we also contacted agency officials and reviewed documentation to determine
the accuracy of the reported information. For two of these agencies, APHIS and ARS, we also
performed field visits to assess the agencies’ actual progress compared with that reported to OBPA.

Except as noted in Finding No. 2, we found that the information reported by the agencies on their
allocated and obligated funds was accurate in the March 2003 status reports we received. However,
our review disclosed that for four of the sampled agencies, the reported due dates and project status
were not always accurate enough to assure OBPA and the Department that funded projects were being
completed within the agencies’ stated timeframes. During the course of fieldwork, we continued to
find similar conditions in subsequent reports through May 2003.

Of 125 milestones reported in APHIS’ status report for March 2003, 48 were insufficiently descriptive,
out-of-date, or found to be inaccurate when reviewed against the agency’s internal data. Of
93 milestones reported by ARS in that same month, 24 were insufficiently descriptive or unsupported
by agency data, as were 15 of the 86 milestones reported by FSIS.




4
  This number includes Departmental Administration itself, which administered the use of some of its appropriated funds directly. It also includes APHIS
and FSIS, which received funds from Departmental Administration’s appropriation in addition to the funds appropriated to them directly by Congress.
Jeremy Stump, et al.                                                                                6

For example, status reports were not always supported by information available at the agencies. Based
on information we obtained from the agencies, we determined that dates or other information reported
were often incorrect. For two examples:

      --      One of APHIS’ major projects was to upgrade physical and operational security at
              18 critical facilities. The March 2003 status report listed the same anticipated
              completion date of July 2003 for all 18. However, we found through interviews with
              APHIS officials that the actual projected completion dates for these facilities ranged
              from September 2003 through January 2004.

      --      Although ARS’ March 2003 status report showed that security upgrades for 13 facilities
              would be completed in April 2003, the agencies’ actual anticipated completion dates for
              12 of the 13 ranged between June and December 2003; for the remaining facility, ARS
              did not even have an estimated start date. The monthly status reports for all 13
              indicated that security upgrades had started in October 2002, but project documentation
              showed that only one actually started prior to January 2003. ARS personnel explained
              that the initial due dates were carried over from prior month’s status reports and were
              never looked at and revised.

In addition, estimated completion dates were often outdated. Agencies did not always revise the
estimated timeframes for completing milestones even after the dates being reported to OBPA had
passed. For example:

              -- Of the 93 milestones reported by ARS for March 2003, the estimated completion
              dates for 24 passed without being updated. As of May 2003, 13 of these were 1 or more
              months out of date, with the oldest being 8 months out of date.

              -- Of the 125 milestones reported by APHIS for March 2003, the estimated completion
              dates for 13 passed without being updated. For example, one milestone projected the
              installation of security equipment to restrict access to pesticides, drugs, firearms and
              explosives by November 2002. However, the May 2003 status report did not contain a
              revised or actual completion date. The comments section indicated that it was
              98 percent complete.

Last, our review revealed that interim milestones were sometimes inaccurately presented as project
completion dates in status reports. In some instances, dates appeared to show funded projects were
completed when in reality they were still in process. For example:

              -- APHIS used some of its funds for a project to develop sensing technology that would
              detect plant materials coming through the mail. Both this and an equivalent technology
              development project for animal products were to be completed in 4 phases. While the
              status report correctly reflected these developmental stages for the animal products
              project, the project for plant products showed only a single date. The sole completion
              date reflected on the report for plant products was actually the date the contract was
              entered into with the Department of Energy, (Phase I), not the true completion date.
Jeremy Stump, et al.                                                                                     7

                -- APHIS’ March 2003 report showed that a study on shipping containers of fruit
                products had been completed in February 2003. APHIS officials stated that the
                February date on the status report showed when a contract was signed for work to be
                performed, rather than the date the project was actually completed. APHIS personnel
                responsible for preparing the status report stated that they considered the milestone
                completed once the contract was signed, not when the work was accomplished.

OBPA officials responded that they were aware of the discrepancies but stated that they do not have
the authority to require agencies to revise reports. Departmental Administration does have the
authority to require such changes, but OBPA officials said the status reports are not routinely provided
to them. OBPA officials stated that they do suggest updates the agencies need to make, but we
observed in our review of May 2003 status reports that errors in the March reports generally remained
uncorrected.

In response to this problem, OBPA officials have developed their own internal tracking document
(updated quarterly) based on the most current information. We compared a copy of this document
(covering the period ending March 2003) to agencies’ status reports for the same period. We found
that the OBPA report generally contained the same discrepancies as those in the agencies’ monthly
status reports.

Recommendation No. 1:

Issue a notice to all agencies requiring them to establish a review process and internal controls that will
identify and correct errors and outdated information on the status reports. The notice should also
clarify that the status reports should reflect both financial and program-accomplishment information.

Agency Response:

Agency officials stated they have developed internal review processes and tracking documents to
prevent errors and ensure information on the status of projects is up-to-date. In addition, OBPA and
Homeland Security staff met with agency administrators to encourage higher level attention to the
monitoring and reporting on the status of Homeland Security funds.

OIG Position:

We accept this response to reach management decision and no further action is necessary.

FINDING NO. 2 - APHIS’ STATUS REPORTS DID NOT ACCURATELY REFLECT
OBLIGATIONS OF HOMELAND SECURITY FUNDS

APHIS’ monthly status reports did not accurately reflect the agency’s cumulative obligations of funds
because, beginning in early fiscal year 2003, the agency began reporting disbursements instead of
obligations. Although APHIS officials stated that this change was made at the verbal direction of
OBPA officials, we were unable to confirm this. The OBPA officials themselves stated that they had
never instructed APHIS to report disbursements as obligations. As a result of the reporting error, as of
March 2003, the agency’s status report understated cumulative obligations by $26 million. In addition,
Jeremy Stump, et al.                                                                               8

since APHIS’ budget staff used the status reports as part of their own internal monitoring process,
agency officials were unaware that as of May 2003 their obligations for two projects exceeded the
amounts approved by the Office of the Secretary by approximately $1.1 million. APHIS officials
informed us that they had corrected the problem on the May 2003 status report, and as of May they
were reporting cumulative obligations. Our review of the May 2003 status report confirmed that this
had been done.

We also found that APHIS did not have adequate controls to ensure that obligations of funds remained
within the guidelines specified by the Department in the approved spending plans. This occurred
because APHIS budget officials used the status reports, rather than the agency’s internal accounting
records, to monitor obligations on a monthly basis. As a result, supplemental funds for two Homeland
Security activities—remote sensing and smuggling interdiction—were over-obligated by $1,123,106 as
of May 2003. These over-obligations had not been previously apparent to OBPA because, as noted
above, the status reports had been underreporting obligations.

Our comparison of the status reports to APHIS’ finance system records also disclosed reporting errors
in 2 of the 52 categories. The status reports showed that obligations for swine feeding surveillance
totaled $1,663,349, while the agency’s own finance record reflected $1,709,539. Thus, the actual
obligations per agency records were $46,190 greater than what was reported to OBPA. The status
report also understated obligations by $3,418 for telecommunications/COOP (Cooperative). An
APHIS official acknowledged the errors, and said that the amounts on the finance system were correct.
We determined that APHIS could have prevented these clerical errors if they had established controls
to reconcile the obligations on the status report to the obligations in the accounting system.

Recommendation No. 2:

Determine whether the additional $1,123,106 for remote sensing and smuggling interdiction were
appropriate and necessary. If so, determine whether funds need to be redirected from other sources to
meet the agency’s Homeland Security needs.

Agency Response:

According to APHIS officials, they have corrected these over-obligations which were errors in the
accounting system.

OIG Position:

We accept this response to reach management decision and no further action is necessary.

Recommendation No. 3:

Require APHIS to institute procedures to reconcile the obligations on its status reports to the
obligations reflected in its accounting system on a monthly basis.
Jeremy Stump, et al.                                                                                9

Agency Response:

APHIS officials stated that they reconcile obligations in the accounting system with the status report
monthly.

OIG Position:

We accept this response to reach management decision and no further action is necessary.


We appreciate the assistance and cooperation of your respective staffs during the audit.



     /s/
ROBERT W. YOUNG
Assistant Inspector General
 for Audit
EXHIBIT A – SUMMARY OF MONETARY RESULTS                                                     10


                                                                          Exhibit A – Page 1 of 1




      Finding       Recommendation        Description      Amount       Category
      Number            Number

         2                    3          Funds obligated   1,123,106   FTBPTBU (A)
                                         in excess of
                                         approved levels

(A)     Funds to be put to better use.
EXHIBIT B – AGENCY RESPONSE                      11



                              Exhibit B – Page 1 of 6
EXHIBIT B – AGENCY RESPONSE                      12

                              Exhibit B – Page 2 of 6
EXHIBIT B – AGENCY RESPONSE                      13

                              Exhibit B – Page 3 of 6
EXHIBIT B – AGENCY RESPONSE                      14

                              Exhibit B – Page 4 of 6
EXHIBIT B – AGENCY RESPONSE                      15




                              Exhibit B – Page 5 of 6
EXHIBIT B – AGENCY RESPONSE                      16




                              Exhibit B – Page 6 of 6
Informational copies of this report have been distributed to:

       General Accounting Office                                (1)
       Office of the Chief Financial Officer
        Director, Planning and Accountability Division          (1)
